                       U.S. Department of Agriculture

                          Office of Inspector General
                           Financial & IT Operations




             Audit Report

 National Information Technology Center
General Controls Review – Fiscal Year 2007




                             Report No. 88501-10-FM
                                    September 2007
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




September 27, 2007



REPLY TO
ATTN OF:       88501-10-FM

TO:            Charles R. Christopherson, Jr.
               Chief Information Officer
               Office of the Chief Information Officer

THRU:          Sherry Linkins
               Office of the Chief Information Officer
               Information Resources Management

FROM:          Robert W. Young             /s/
               Assistant Inspector General
                for Audit

SUBJECT:       National Information Technology Center General Controls Review - Fiscal Year
               2007


This report presents the results of our audit of the internal control structure at the Office of the
Chief Information Officer/National Information Technology Center as of June 30, 2007. The
audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States including American Institute of Certified Public
Accountants Professional Standards commonly referred to as a Statements on Auditing
Standards 70 audit. The report contains an unqualified opinion on the internal control structure
and contains no recommendations.

If you have any questions, please call me at (202) 720-6945, or have a member of your staff
contact Steve Rickrode, Director, Administration and Finance Division, at (202) 720-1918.
Executive Summary
National Information Technology Center General Controls Review - Fiscal Year 2007
(Audit Report No. 88501-10-FM)

Results in Brief    This report presents the results of our audit of the Office of the Chief
                    Information     Officer/National      Information      Technology  Center’s
                    (OCIO/NITC) internal control structure as of June 30, 2007. Our review was
                    conducted in accordance with Government Auditing Standards issued by the
                    Comptroller General of the United States including American Institute of
                    Certified Public Accountants Professional Standards as amended by
                    applicable statements on auditing standards. Our report contains an
                    unqualified opinion on the center’s internal control structure.

                    Our objectives were to perform procedures necessary to express opinions
                    about whether (1) OCIO/NITC’s description of controls in exhibit A presents
                    fairly, in all material respects, the aspects of OCIO/NITC’s controls that may
                    be relevant to a customer agency’s internal control as it relates to an audit of
                    financial statements; (2) the controls included and/or referenced were placed
                    in operation and suitably designed to achieve the control objectives specified
                    in the description, if those controls were complied with satisfactorily, and
                    customer agencies applied the controls contemplated in the design of
                    OCIO/NITC’s controls; and (3) the controls we tested were operating with
                    sufficient effectiveness to provide reasonable, but not absolute, assurance that
                    the control objectives specified were achieved during the period from July 1,
                    2006, through June 30, 2007.

                    Our audit disclosed that the control objectives and techniques identified in
                    exhibit A presented fairly, in all material respects, the relevant aspects of
                    OCIO/NITC’s control environment taken as a whole. Also, in our opinion,
                    the policies and procedures, as described, were suitably designed to provide
                    reasonable assurance that the control objectives would be achieved and were
                    operating effectively.

Recommendation
In Brief            We do not make any recommendations in this report.




USDA/OIG-A/88501-10-FM                                                                       Page i
Abbreviations Used in This Report


ASSERT         Automated Security Self-Evaluation and Remediation Tracking
C&A            certification and accreditation
ID             Identification
IT             information technology
NIST           National Institute of Standards and Technology
NITC           National Information Technology Center
OCIO           Office of the Chief Information Officer
PIA            Privacy Impact Assessments
POA&M          Plan of Action & Milestones
RFP            Request for Procurement
SAC            Special Agreement Check
SFUG           Security Features User Guide
ST&E           Security Test and Evaluation
USDA           U.S. Department of Agriculture




USDA/OIG-A/88501-10-FM                                                       Page ii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .......................................................................................................ii

Report of the Office of Inspector General ............................................................................................ 1

Exhibit A – Office of Inspector General, Review of Selected Controls.............................................. 3




USDA/OIG-A/88501-10-FM                                                                                                                   Page iii
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250



Report of the Office of Inspector General
To:    Charles R. Christopherson, Jr.
       Chief Information Officer
       Office of the Chief Information Officer

We have examined the control objectives and techniques identified in exhibit A for the
U.S. Department of Agriculture’s (USDA) Office of the Chief Information Officer/National
Information Technology Center (OCIO/NITC). Our examination included procedures to obtain
reasonable assurance about whether (1) the accompanying description of control objectives and
techniques of the USDA’s OCIO/NITC presents fairly, in all material respects, the aspects of
OCIO/NITC’s controls that may be relevant to a customer agency’s internal controls as it relates to an
audit of financial statements; (2) the controls included had been placed in operation as of June 30,
2007; and (3) such controls were suitably designed to achieve the control objectives, if those controls
were complied with satisfactorily, and customer agencies applied the controls contemplated in the
design of OCIO/NITC’s controls. The control objectives were specified by OCIO/NITC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants and included those procedures necessary in the circumstances to obtain a
reasonable basis for rendering our opinion.

In our opinion, the control objectives and techniques identified in exhibit A of this report present fairly,
in all material respects, the relevant aspects of OCIO/NITC that had been placed in operation as of
June 30, 2007. Also, in our opinion, the controls included or referenced in exhibit A were suitably
designed to provide reasonable assurance that the specified control objectives would be achieved if the
described controls were complied with satisfactorily and customer agencies applied the controls
contemplated in the design of OCIO/NITC’s controls.

In addition, we performed tests to obtain evidence regarding the effectiveness of specific controls in
meeting the control objectives included in exhibit A during the period from July 1, 2006, to
June 30, 2007. The specific controls and the nature, timing, extent, and results of our tests are
identified in exhibit A. This information has been provided to customer agencies and their auditors to
be taken into consideration, along with information about the internal control at customer agencies,
when making assessments of control risk for customer agencies. In our opinion, the controls that were
tested were operating with sufficient effectiveness to provide reasonable, but not absolute, assurance
that the control objectives specified in exhibit A were achieved during the period from July 1, 2006,
through June 30, 2007.



USDA/OIG-A/88501-10-FM                                                                              Page 1
The relative effectiveness and significance of specific controls at OCIO/NITC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the controls
and other factors present at individual user organizations. We have performed no procedures to
evaluate the effectiveness of controls at individual customer agencies.

The control objectives and techniques at OCIO/NITC are as of June 30, 2007, and information about
tests of the operating effectiveness of specific controls covers the period from July 1, 2006, through
June 30, 2007. Any projections of such information to the future are subject to the risk that, because of
change, they may no longer portray the controls in existence. The potential effectiveness of specific
controls at OCIO/NITC is subject to inherent limitations and, accordingly, errors or fraud may occur
and not be detected. The projection of any conclusions, based on our findings, to future periods is
subject to the risk that changes may alter the validity of such conclusions. Furthermore, the accuracy
and reliability of data processed by OCIO/NITC and the resultant report ultimately rests with the
customer agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCIO/NITC, its users, and their auditors.

/s/

Robert W. Young
Assistant Inspector General
 for Audit

August 27, 2007




USDA/OIG-A/88501-10-FM                                                                            Page 2
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                     Exhibit A – Page 1 of 16

The objectives of our examination were to perform testing necessary to express an opinion about
whether (1) the Office of the Chief Information Officer/National Information Technology Center’s
(OCIO/NITC) description of controls in exhibit A presents fairly, in all material respects, the aspects
of OCIO/NITC’s controls that may be relevant to a customer agency’s internal control as it relates to
an audit of financial statements; (2) the controls included and/or referenced were placed in operation
and suitably designed to achieve the control objectives specified in the description, if those controls
were complied with satisfactorily, and customer agencies applied the controls contemplated in the
design of OCIO/NITC’s controls; and (3) the controls we tested were operating with sufficient
effectiveness to provide reasonable, but not absolute, assurance that the control objectives specified
were achieved during the period from July 1, 2006, through June 30, 2007.

This report is intended to provide users of OCIO/NITC with information about the control structure
policies and procedures at OCIO/NITC that may affect the processing of user organizations’
transactions and also to provide users with information about the operating effectiveness of the policies
and procedures that were tested. This report, when combined with an understanding and assessment of
the internal control structure policies and procedures at user organizations, is intended to assist user
auditors in (1) planning the audit of user organizations’ financial statements and (2) in assessing
control risk for assertions in user organizations’ financial statements that may be affected by policies
and procedures at OCIO/NITC.

Our testing of OCIO/NITC’s control structure policies and procedures was restricted to the control
objectives and the related policies and procedures listed in the matrices in this exhibit. Our testing was
not intended to apply to any other procedures that were not included in the aforementioned matrices or
to procedures that may be in effect at user organizations.

Our review was performed through inquiry of key OCIO/NITC personnel, observation of activities,
examination of relevant documentation and procedures, and tests of controls. We also followed up on
known control weaknesses identified in prior Office of Inspector General audits. We performed such
tests as we considered necessary to evaluate whether the operating and control procedures described by
OCIO/NITC and the extent of compliance with them are sufficient to provide reasonable, but not
absolute, assurance that control objectives were achieved.

The description of the tests of operating effectiveness and the results of those tests are included in the
following section of this report.




USDA/OIG-A/88501-10-FM                                                                              Page 3
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                             Exhibit A – Page 2 of 16


 NIST Control        Control Objective            Control Activities              Tests Performed                   Conclusion
    Area

 Access Control   Organizations must limit    OCIO/NITC follows the         We reviewed various              OCIO/NITC controls
                  information system          U.S. Department of            OCIO/NITC documents              were suitably designed
                  access to authorized        Agriculture (USDA) and        regarding the management of      and operating effectively
                  users, processes acting     the National Institute of     information system accounts.     to achieve the control
                  on behalf of authorized     Standards and Technology                                       objectives.
                  users, or devices           (NIST) guidelines for         We examined recent change
                  (including other            access control policies and   records supplied by
                  information systems)        procedures. OCIO/NITC’s       OCIO/NITC in the form of
                  and to the types of         security directive            e-mail confirmations from
                  transactions and            establishes a “least          agencies served by
                  functions that authorized   privilege” mode of            OCIO/NITC to determine
                  users are permitted to      operation for its staff and   account review status and
                  exercise.                   contractors.                  frequency.

                                              OCIO/NITC provides            We examined documents
                                              management of accounts        supplied by OCIO/NITC
                                              through authorizations,       indicating implementation of
                                              approvals, and reviews.       access enforcement,
                                              OCIO/NITC provides            discretionary access control.
                                              further control through the
                                              documentation and             We reviewed various types
                                              implementation of             of documentation to ensure
                                              separation of duties.         separation of duties and least
                                                                            privilege access.
                                              OCIO/NITC also employs
                                              system settings to provide    We interviewed and
                                              additional access controls.   observed system
                                              These include limiting        administrators to ensure
                                              unsuccessful login            lockouts occurred after a
                                              attempts, displaying          defined number of
                                              warning banners, session      unsuccessful login attempts.
                                              locks, and session
                                              termination.                  We reviewed samples of
                                                                            system use notification
                                                                            banners to ensure the
                                                                            information system displays
                                                                            an approved system use
                                                                            notification message before
                                                                            granting system access.

                                                                            We interviewed and
                                                                            observed system
                                                                            administrators to ensure
                                                                            system timeouts and/or
                                                                            session termination occurred
                                                                            after a defined period of
                                                                            inactivity.




   USDA/OIG-A/88501-10-FM                                                                                                          Page 4
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 3 of 16


 NIST Control       Control Objective           Control Activities             Tests Performed                  Conclusion
    Area
                                                                          We examined documentation
                                                                          for evidence of
                                                                          organizational reviews and
                                                                          documentation of incidents
                                                                          and general user activity.

                                                                          We examined sample output
                                                                          from mainframe systems to
                                                                          ensure automated marking of
                                                                          documents is in use.

                                                                          We interviewed OCIO/NITC
                                                                          staff to determine if remote
                                                                          access occurred through
                                                                          secure methods.


 Awareness and   Organizations must (1)      The OCIO/NITC                We compared a listing of       OCIO/NITC controls were
 Training        ensure that managers        Information Security         employees/contractors who      suitably designed and
                 and users of                Program includes             completed AgLearn security     operating effectively to
                 organizational              security awareness           training to a listing of all   achieve the control
                 information systems are     training to inform           employees/contractors          objectives.
                 made aware of the           personnel, including         employed by OCIO/NITC to
                 security risks associated   contractors and other        verify staff had completed
                 with their activities and   users of information         required security training.
                 of the applicable laws,     systems that support the
                 Executive Orders,           operations and assets of
                 directives, policies,       the agency, of the
                 standards, instructions,    information security
                 regulations, or             risks associated with
                 procedures related to the   their activities and their
                 security of                 responsibilities in
                 organizational              complying with agency
                 information systems;        policies and procedures
                 and (2) ensure that         designed to reduce these
                 organizational personnel    risks. In this regard, the
                 are adequately trained to   OCIO/NITC security
                 carry out their assigned    directive for security
                 information security        awareness training
                 related duties and          requires new employees
                 responsibilities.           and contractor personnel
                                             to complete security
                                             awareness orientation
                                             before they are given
                                             access to OCIO/NITC
                                             computer systems.




   USDA/OIG-A/88501-10-FM                                                                                                     Page 5
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 4 of 16


 NIST Control         Control Objective          Control Activities              Tests Performed                Conclusion
    Area
                  .
                                             The OCIO/NITC
                                             security directive for
                                             security awareness
                                             training also requires
                                             employees to complete
                                             annual security
                                             awareness training to
                                             renew their awareness
                                             of their security
                                             responsibilities.

                                             OCIO/NITC requires
                                             employees and
                                             contractors to complete
                                             annual security
                                             awareness training that
                                             addresses basic USDA
                                             computer security
                                             concepts.


 Audit and        Organizations must (1)     OCIO/NITC follows NIST         We reviewed various          OCIO/NITC controls were
 Accountability   create, protect, and       and USDA guidelines and        documents to determine if    suitably designed to
                  retain information         has supplemented with an       log files were created and   achieve the control
                  system audit records to    OCIO/NITC specific             reviewed.                    objective but were not
                  the extent needed to       security directive for audit                                operating effectively.
                  enable the monitoring,     and accountability.            We reviewed audit logs to    However, compensating
                  analysis, investigation,                                  ensure appropriate           access controls mitigate
                  and reporting of           The OCIO/NITC security         information was captured.    the risk to OCIO/NITC
                  unlawful, unauthorized,    directive for audit and                                     systems.
                  or inappropriate           accountability states that
                  information system         administrators/system                                       Additionally, OCIO/NITC
                  activity; and (2) ensure   owners will (1) ensure                                      is in the process of
                  that the actions of        security related events are                                 procuring software,
                  individual information     recorded in the system                                      hardware, maintenance,
                  system users can be        log, (2) ensure that the                                    and training required for
                  uniquely traced to those   system logs are routinely                                   implementing a
                  users so they can be       reviewed, and (3) notify                                    centralized Security
                  held accountable for       the Chief Security Staff of                                 Information and Event
                  their actions.             any actual or suspected                                     Management solution.
                                             security incident revealed
                                             during reviews. It also
                                             provides that the security
                                             staff will (1) randomly
                                             review system logs, (2)
                                             investigate reported




   USDA/OIG-A/88501-10-FM                                                                                                     Page 6
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                           Exhibit A – Page 5 of 16


  NIST Control      Control Objective            Control Activities             Tests Performed                   Conclusion
     Area
                                              incidents, (3) maintain
                                              record of the reviews
                                              made by security staff,
                                              and (4) assist
                                              administrators/system
                                              owners with analyzing the
                                              system logs.




 Certification,   Organizations must (1)      OCIO/NITC follows            We obtained and reviewed        OCIO/NITC controls were
 Accreditation,   periodically assess the     USDA certification and       ST&Es that were recently        suitably designed and
 and Security     security controls in        accreditation (C&A)          performed to ensure testing     operating effectively to
 Assessments.     organizational              procedures which require     was based on NIST Special       achieve the control
                  information systems to      an independent Security      Publication 800-53.             objectives.
                  determine if the controls   Test and Evaluation
                  are effective in their      (ST&E) to determine the      We obtained and reviewed
                  application, (2) develop    effectiveness of the         Interconnection Security
                  and implement plans of      security controls on the     Agreements between
                  action designed to          information technology       OCIO/NITC and other
                  correct deficiencies and    (IT) system and the          organizations to determine if
                  reduce or eliminate         designated approving         agreements were in place for
                  vulnerabilities in          authority to decide          external systems connecting
                  organizational              whether or not to            to OCIO/NITC.
                  information systems, (3)    authorize the system for
                  authorize the operation     processing based on the      We reviewed documentation
                  of organizational           ST&E results and residual    to determine if POA&Ms
                  information systems and     risk. This accreditation     were documented and
                  any associated              decision, along with the     monitored.
                  information system          supporting documentation
                  connections, and (4)        and rationale, are
                  monitor information         documented in the final
                  system security controls    accreditation package.
                  on an ongoing basis to
                  ensure the continued        OCIO/NITC has a security
                  effectiveness of the        directive that defines
                  controls.                   required documentation
                                              for the accreditation
                                              package.

                                              In addition, OCIO/NITC
                                              uses weaknesses identified
                                              from audits, reviews, self
                                              assessments, and the
                                              related corrective actions
                                              to document and track
                                              plan of action and
                                              milestones (POA&M).
                                              POA&Ms are tracked by



   USDA/OIG-A/88501-10-FM                                                                                                       Page 7
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                       Exhibit A – Page 6 of 16


 NIST Control      Control Objective           Control Activities             Tests Performed                 Conclusion
    Area
                                           the security staff and
                                           Project Management
                                           Office. OCIO/NITC
                                           reviews and updates
                                           System Security Plans and
                                           Privacy Impact
                                           Assessments (PIA) in
                                           addition to Annual Self
                                           Assessments.



 Configuration   Organizations must (1)    OCIO/NITC has an             We interviewed OCIO/NITC       OCIO/NITC controls were
 Management      establish and maintain    administrative directive     Configuration Management       suitably designed and
                 baseline configurations   that requires changes to     personnel to determine if      operating effectively to
                 and inventories of        the configuration of         significant changes had been   achieve the control
                 organizational            OCIO/NITC owned              made to OCIO/NITC              objectives.
                 information systems       systems be approved by       Configuration Management
                 (including hardware,      OCIO/NITC management         policies and procedures.
                 software, firmware, and   prior to implementation,
                 documentation)            and that testing, customer   We reviewed the system
                 throughout the            coordination, and other      baseline documentation to
                 respective system         key activities be            ensure configurations were
                 development life cycles   documented.                  properly documented.
                 and (2) establish and     OCIO/NITC management
                 enforce security          approval is required for     We obtained and reviewed
                 configuration settings    any changes.                 change requests for several
                 for IT products                                        systems to ensure changes
                 employed in               Baseline configuration of    were documented, reviewed,
                 organizational            the information system is    and approved.
                 information systems.      documented as part of the
                                           C&A process.                 We reviewed samples of
                                           Additionally, component      Configuration Control Board
                                           information is maintained    and Executive Review Board
                                           in an asset management       meeting minutes to
                                           database, and component      determine if changes were
                                           and software information     reviewed and decisions to
                                           is maintained in             approve/disapprove were
                                           Configuration                made.
                                           Management Information
                                           Tracking System.             We reviewed firewall and
                                                                        router documentation to
                                           OCIO/NITC uses a Cisco       determine if port use was
                                           Security Agent client        properly configured and
                                           configured for monitoring    documented.
                                           system logs and program
                                           libraries for Windows        We obtained and reviewed
                                           systems and Computer         inventory lists to determine
                                           Associates Examine for       if components of the
                                           the mainframe to restrict    information system and
                                           access when changes are      relevant ownership
                                           being implemented.           information were
                                                                        maintained.

   USDA/OIG-A/88501-10-FM                                                                                                   Page 8
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                            Exhibit A – Page 7 of 16


 NIST Control     Control Objective            Control Activities               Tests Performed                    Conclusion
    Area
                                           Additionally, the
                                           OCIO/NITC systems are
                                           configured according to
                                           OCIO/NITC configuration
                                           guides, which are built on
                                           NIST and USDA
                                           guidelines which
                                           document the functions,
                                           ports, and protocols that
                                           are allowed.


 Contingency    Organizations must         OCIO/NITC follows              We reviewed various plans         OCIO/NITC controls were
 Planning       establish, maintain, and   planning policy and            related to contingency            suitably designed and
                effectively implement      procedures provided by         planning for the enterprise,      operating effectively to
                plans for emergency        OCIO Cyber Security.           network, infrastructure           achieve the control
                response, backup                                          support system, midrange          objectives.
                operations, and post-      Contingency plans for          UNIX, Customer
                disaster recovery for      OCIO/NITC systems              Information Management
                organizational             address roles,                 System, and mainframe.
                information systems to     responsibilities, contact
                ensure the availability    information, and activities    We reviewed disaster
                of critical information    associated with restoring      recovery test results to verify
                resources and continuity   the system after a             tests performed and training
                of operations in           disruption or failure are in   participants.
                emergency situations.      place. The plans are
                                           updated and tested at least    We reviewed documentation
                                           annually. The USDA             related to off-site storage and
                                           Mainframe General              alternate processing sites.
                                           Support System plans are
                                           tested twice each year.

                                           OCIO/NITC backs up
                                           user-level and system-
                                           level information
                                           (including system state
                                           information) contained in
                                           the information system
                                           nightly and stores backup
                                           information in a secured
                                           alternate site.

                                           Two alternate processing
                                           sites have been identified
                                           (1) a contracted hot site in
                                           Boulder, Colorado, and
                                           (2) a second OCIO/NITC
                                           site in Beltsville,
                                           Maryland. Both are used
                                           for the resumption of
                                           mission critical functions.



   USDA/OIG-A/88501-10-FM                                                                                                        Page 9
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                            Exhibit A – Page 8 of 16


 NIST Control       Control Objective             Control Activities             Tests Performed                   Conclusion
    Area

 Identification   Organizations must          OCIO/ NITC follows            We obtained and reviewed        OCIO/NITC controls were
 and              identify information        identification and            policies and procedures         suitably designed and
 Authentication   system users, processes     authentication policy and     related to identification and   operating effectively to
                  acting on behalf of         procedures provided by        authentication of information   achieve the control
                  users, or devices and       OCIO Cyber Security and       system users and devices.       objectives.
                  authenticate (or verify)    NIST guidelines.
                  the identities of those     OCIO/NITC also has            We reviewed and verified
                  users, processes, or        implemented a Personnel       baseline configurations.
                  devices as a prerequisite   Security Plan and an
                  to allowing access to       additional security           We observed logins to
                  organizational              directive which provides      ensure passwords were not
                  information systems.        guidance on passwords.        displayed.
                                              These guidelines and
                                              directives assist
                                              OCIO/NITC in managing
                                              access to its systems.
                                              OCIO/NITC also has an
                                              administrative directive
                                              that defines the revocation
                                              process of identifiers.

                                              OCIO/NITC requires
                                              unique user identity and
                                              authentication for access
                                              to its systems.

                                              Identification and
                                              authentication of devices
                                              is also required for access
                                              to resources.


 Incident         Organizations must (1)      OCIO/NITC follows             We obtained and reviewed        OCIO/NITC controls were
 Response         establish an operational    Cyber Security incident       policies and procedures for     suitably designed and
                  incident handling           response policy and           Incident Response.              operating effectively to
                  capability for              procedures as described in                                    achieve the control
                  organizational              Departmental regulations.     We reviewed security            objectives.
                  information systems                                       training information to
                  that includes adequate      OCIO/NITC is developing       determine if personnel were
                  preparation, detection,     policies and procedures to    trained in incident response
                  analysis, containment,      formally document             roles and responsibilities.
                  recovery, and user          OCIO/NITC controls.
                  response activities; and                                  We reviewed incident
                  (2) track, document, and    Information system            response reports to
                  report incidents to         security incidents are        determine if incidents were
                  appropriate                 tracked and documented        accurately and promptly
                  organizational officials    based on procedures in        reported.
                  and/or authorities.         Departmental regulations.




   USDA/OIG-A/88501-10-FM                                                                                                       Page 10
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 9 of 16


 NIST Control     Control Objective             Control Activities             Tests Performed                 Conclusion
    Area
                                            OCIO/NITC promptly           We interviewed staff to
                                            reports incident             determine who provides
                                            information to OCIO          advice and assistance to
                                            Cyber Security.              users and administrators.




 Maintenance    Organizations must (1)      OCIO/NITC follows            We examined several            OCIO/NITC controls were
                perform periodic and        maintenance policies and     documents regarding            suitably designed and
                timely maintenance on       procedures provided by       maintenance of hardware and    operating effectively to
                organizational              OCIO Cyber Security and      software.                      achieve the control
                information systems;        NIST guidelines.                                            objectives.
                and (2) provide                                          We examined the remote
                effective controls on the   OCIO/NITC schedules,         administration systems
                tools, techniques,          performs, and documents      regarding responsibilities,
                mechanisms, and             routine preventative and     review of system logs and
                personnel used to           regular maintenance on       documentation, and the
                conduct information         the components of the        method of communication
                system maintenance.         information system in        used by the system.
                                            accordance with
                                            manufacturer or vendor       We examined policy
                                            specifications and/or        documents regarding
                                            organizational               procedures for authorizing
                                            requirements.                staff to perform maintenance
                                                                         and the circumstances
                                            Hardware maintenance         allowing access.
                                            processes are included in
                                            hardware contracts.          We examined purchase order
                                            Software maintenance         documents for the
                                            procedures and upgrades      maintenance of information
                                            are included in software     system hardware.
                                            contracts.

                                            Access to OCIO/NITC
                                            systems is monitored, and
                                            both physical and logical
                                            access is controlled.

                                            OCIO/NITC utilizes
                                            “phone home”
                                            connections to vendors for
                                            diagnostic activities.
                                            Additionally, personnel
                                            authorizations are
                                            documented in the
                                            OCIO/NITC Personnel



   USDA/OIG-A/88501-10-FM                                                                                                   Page 11
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                           Exhibit A – Page 10 of 16


  NIST Control     Control Objective              Control Activities             Tests Performed                   Conclusion
     Area
                                              Security Plan.
                                              Background checks are
                                              performed on all workers.

                                              Visitors to controlled
                                              areas are escorted.


 Media           Organizations must (1)       OCIO/NITC follows             We reviewed security            OCIO/NITC controls were
 Protection      protect information          policies and procedures       directive documentation for     suitably designed and
                 system media, both           provided by OCIO Cyber        verification of system and      operating effectively to
                 paper and digital, (2)       Security and NIST             system media categorization     achieve the control
                 limit access to              guidelines.                   and control.                    objectives.
                 information on
                 information system           OCIO/NITC also has a          We reviewed security
                 media to authorized          security directive which      directive and control
                 users, and (3) sanitize or   provides for additional       documentation for
                 destroy information          control for protection,       verification of system media
                 system media before          control, and disposal of      sanitization and control.
                 disposal or release for      documents, media, and
                 reuse.                       other sensitive materials.

                                              Access to storage of media
                                              is restricted to authorized
                                              personnel.
                                              Sanitation of equipment
                                              and media prior to
                                              disposal or reuse is
                                              enforced through
                                              OCIO/NITC’s security
                                              directive. All information
                                              is treated as though it is
                                              sensitive.




   USDA/OIG-A/88501-10-FM                                                                                                       Page 12
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                              Exhibit A – Page 11 of 16


 NIST Control      Control Objective             Control Activities               Tests Performed                     Conclusion
    Area

 Physical and    Organizations must (1)      OCIO/NITC follows              We reviewed policies and           OCIO/NITC controls were
 Environmental   limit physical access to    physical and                   procedures related to              suitably designed and
 Protection      information systems,        environmental policies         physical and environmental         operating effectively to
                 equipment, and the          and procedures provided        protection.                        achieve the control
                 respective operating        by OCIO Cyber Security                                            objectives.
                 environments to             and NIST guidelines. In        We reviewed employee lists
                 authorized individuals;     addition to those              and access lists and other
                 (2) protect the physical    guidelines, OCIO/NITC          documentation to verify
                 plant and support           has a physical security        access and annual reviews of
                 infrastructure for          plan and procedures            access.
                 information systems; (3)    included within their
                 provide supporting          general controls that          We tested the functionality
                 utilities for information   documents physical             and observed proper
                 systems; (4) protect        control details.               operation of card readers and
                 information systems                                        cameras.
                 against environmental       OCIO/NITC keeps up-to-
                 hazards; and (5) provide    date lists of personnel with   We interviewed staff
                 appropriate                 authorized access using        regarding the monitoring of
                 environmental controls      the facility security          physical access to the facility
                 in facilities containing    system, known as On-           and access log
                 information systems.        Guard, to control access       documentation.
                                             and issue badges.
                                                                            We reviewed samples of
                                             Access to restricted           video taken from three
                                             computer operations is         access points.
                                             granted through an
                                             OCIO/NITC                      We reviewed the
                                             administrative directive.      administrative policy
                                             All physical access points,    regarding the verification
                                             including access to            and admittance of visitors to
                                             systems, are controlled by     information systems areas.
                                             On-Guard and guards. For
                                             systems in the data center,    We obtained and examined
                                             physical access is             the documentation for
                                             recorded on digital video      maintenance/testing of the
                                             recorders. Visitors must       uninterruptible power
                                             present proper                 supply, fire suppression
                                             Identification (ID), sign a    system, and temperature and
                                             log, and wear a visitor’s      humidity controls.
                                             badge.
                                                                            We examined policy and
                                             OCIO/NITC employs              documentation regarding
                                             various equipment to           control of information
                                             physically protect the         systems items entering and
                                             information systems. This      exiting the facility.
                                             includes an uninterruptible
                                             power supply that
                                             provides constant power,
                                             sprinkler system in the
                                             office spaces



   USDA/OIG-A/88501-10-FM                                                                                                          Page 13
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                       Exhibit A – Page 12 of 16


 NIST Control     Control Objective            Control Activities             Tests Performed                  Conclusion
    Area
                                            and a fire suppression
                                            system in the data center,
                                            temperature and
                                            humidity level monitoring,
                                            and employing master
                                            shutoff water
                                            valves.

                                            Information system-
                                            related items entering and
                                            exiting the facility are
                                            controlled by the System
                                            Network Control Center,
                                            who maintains appropriate
                                            records of those items.


 Planning       Organizations must          System security plans are    We reviewed security plans,    OCIO/NITC controls were
                develop, document,          reviewed and updated by      SFUGs, and PIAs for            suitably designed and
                periodically update, and    the system owner annually    Customer Information           operating effectively to
                implement security          or whenever a significant    Management Systems,            achieve the control
                plans for organizational    change to the systems,       Infrastructure Support         objectives.
                information systems         facilities, or other         System, Network, and           .
                that describe the           conditions occurs. The       Mainframe.
                security controls in        security staff directs and
                place or planned for the    manages a security           We reviewed selected signed
                information systems and     program, which is            user agreements for
                the rules of behavior for   documented in the            employees/contractors.
                individuals accessing       OCIO/NITC Security
                the information             Plan. The Plan is
                systems.                    reviewed and updated as
                                            needed, at least annually.

                                            OCIO/NITC develops and
                                            distributes Security
                                            Features User Guides
                                            (SFUG) for each system.
                                            SFUGs are updated as
                                            systems evolve.

                                            Each worker, both Federal
                                            and contracted, must read
                                            and sign a user agreement,
                                            which outlines rules of
                                            behavior before they are
                                            allowed access to
                                            OCIO/NITC information
                                            systems.

                                            PIAs are documented for
                                            each system, following



   USDA/OIG-A/88501-10-FM                                                                                                   Page 14
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 13 of 16


 NIST Control     Control Objective            Control Activities              Tests Performed                   Conclusion
    Area
                                           USDA and NIST
                                           guidelines. The PIAs are
                                           updated annually.


 Personnel      Organizations must (1)     OCIO/NITC has a formal,        We obtained and reviewed        OCIO/NITC controls were
 Security       ensure that individuals    documented personnel           Personnel Security Policy       suitably designed and
                occupying positions of     security plan that             and Procedures.                 operating effectively to
                responsibility within      addresses purpose, scope,                                      achieve the control
                organizations (including   roles, responsibilities, and   We obtained and reviewed a      objectives.
                third-party service        compliance. A risk             personnel listing to verify
                providers) are             designation is assigned to     status of background
                trustworthy and meet       each position, and is          investigations/
                established security       documented in the              reinvestigations.
                criteria for those         OCIO/NITC Personnel
                positions, (2) ensure      Security Plan. All             We reviewed the System
                that organizational        workers, both Federal and      User ID check list and
                information and            contracted, must complete      request to remove access to
                information systems are    a favorable Special            verify departing is out
                protected during and       Agreement Check (SAC)          processed correctly.
                after personnel actions    which includes a Federal
                such as terminations       Bureau of Investigations       We reviewed contractor
                and transfers, and (3)     fingerprint check.             statements of work to ensure
                employ formal                                             personnel security
                sanctions for personnel    All Federal and contract       requirements were properly
                failing to comply with     employees are given a          identified and documented.
                organizational security    Federal Protective Service
                policies and procedures.   check and/or a SAC prior
                                           to having access to the
                                           facility, and further
                                           background checks are
                                           completed to establish the
                                           correct level of security
                                           clearance commensurate
                                           with the position they
                                           occupy.

                                           OCIO/NITC also has an
                                           administrative directive
                                           which is utilized for each
                                           employee who leaves
                                           OCIO/NITC whether it is
                                           through removal,
                                           termination, reassignment,
                                           or retirement.

                                           Federal and contract
                                           personnel must read and
                                           sign a user agreement
                                           before they are allowed


   USDA/OIG-A/88501-10-FM                                                                                                     Page 15
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                               Exhibit A – Page 14 of 16


 NIST Control     Control Objective           Control Activities            Tests Performed            Conclusion
    Area
                                          access to the OCIO/NITC
                                          information systems.
                                          Personnel Security
                                          requirements are also part
                                          of all statements of work
                                          for all third-party
                                          providers.

 Risk           Organizations must        OCIO/NITC performs risk      We reviewed risk         OCIO/NITC controls were
 Assessment     periodically assess the   assessments as part of the   assessments to ensure    suitably designed and
                risk to organizational    security management          systems were properly    operating effectively to
                operations (including     process. Currently,          categorized.             achieve the control
                mission, functions,       OCIO/NITC follows                                     objectives.
                image, or reputation),    USDA and NIST                We reviewed the scan
                organizational assets,    guidelines for risk          database.
                and individuals           management policies and
                resulting from the        procedures. Final risk
                operation of              determinations and related
                organizational            management approvals are
                information systems and   documented and
                the associated            maintained in the
                processing, storage, or   Department’s Automated
                transmission of           Security Self-Evaluation
                organizational            and Remediation Tracking
                information.              (ASSERT) database. The
                                          information systems are
                                          categorized as part of the
                                          security management
                                          process using the system
                                          categorization tool within
                                          the ASSERT system.

                                          Risk assessments are
                                          performed as part of the
                                          security management
                                          process following USDA
                                          and NIST guidelines.

                                          OCIO/NITC conducts risk
                                          assessments every 3 years
                                          per USDA and NIST
                                          guidance or when there
                                          has been a major change
                                          to the system or its
                                          environment.

                                          Vulnerability scans are
                                          performed monthly on
                                          appropriate systems. Ad-
                                          hoc scans can be run if


   USDA/OIG-A/88501-10-FM                                                                                           Page 16
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 15 of 16


  NIST Control        Control Objective          Control Activities            Tests Performed                   Conclusion
     Area
                                             new vulnerabilities are
                                             identified.


 System and       Organizations must (1)     OCIO/NITC complies           We reviewed user                 OCIO/NITC controls were
 Services         allocate sufficient        with software usage          agreements to verify             suitably designed and
 Acquisition      resources to adequately    restrictions mandated by     software usage restrictions      operating effectively to
                  protect organizational     USDA Departmental            were documented.                 achieve the control
                  information systems; (2)   memoranda. The rules are                                      objectives.
                  employ system              enforced through signed      We reviewed the Request for
                  development life cycle     user agreements. In          Procurement (RFP) for the
                  processes that             addition, all OCIO/NITC      off-site storage vendor to
                  incorporate information    personnel must complete      ensure that physical and
                  security considerations;   annual “Ethics” and          personnel related security
                  (3) employ software        “Security” training.         controls were documented.
                  usage and installation     OCIO/NITC also includes
                  restrictions; and (4)      requirements for
                  ensure that third-party    employing adequate
                  providers employ           security controls in all
                  adequate security          Statements of Work for all
                  measures to protect        third-party providers.
                  information,
                  applications, and/or
                  services outsourced
                  from the organization.

                  .

 System and       Organizations must (1)     Each OCIO/NITC               We interviewed staff to          OCIO/NITC controls were
 Communications   monitor, control, and      information system is        determine if information         suitably designed and
 Protection       protect organizational     responsible for ensuring     systems prevent                  operating effectively to
                  communications (i.e.,      unauthorized and             unauthorized and unintended      achieve the control
                  information transmitted    unintended information       information transfer via         objectives.
                  or received by             transfer does not occur.     shared system resources.
                  organizational
                  information systems) at    A security directive         We interviewed staff to
                  the external boundaries    implemented by               ensure the external boundary
                  and key internal           OCIO/NITC establishes        is properly protected.
                  boundaries of the          the security boundaries
                  information systems;       and responsibilities of      We interviewed staff to
                  and (2) employ             OCIO/NITC and its            determine the integrity of
                  architectural designs,     customers.                   transmitted information.
                  software development
                  techniques, and systems    OCIO/NITC separates          We interviewed and
                  engineering principles     publicly accessible          observed system
                  that promote effective     information system           administrators regarding
                  information security       components through the       network disconnections.
                  within organizational      use of firewalls and
                  information systems.       separate network nodes.

                                             OCIO/NITC employs
                                             various integrity checking



   USDA/OIG-A/88501-10-FM                                                                                                     Page 17
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                         Exhibit A – Page 16 of 16


 NIST Control     Control Objective           Control Activities              Tests Performed                    Conclusion
    Area
                                          methods, depending on the
                                          system to ensure the
                                          integrity of data
                                          transmissions.

                                          Network disconnects are
                                          also utilized to provide
                                          additional system and
                                          communication protection.


 System and     Organizations must (1)    OCIO/NITC identifies          We obtained and reviewed          OCIO/NITC controls were
 Information    identify, report, and     flaws through several         documentation of the              suitably designed and
 Integrity      correct information and   processes, including scans,   subscription to security alert    operating effectively to
                information system        assessments, audits, and      systems.                          achieve the control
                flaws in a timely         the security management                                         objectives.
                manner; (2) provide       process. Flaws are            We reviewed and verified
                protection from           reported and corrected        system administrators input
                malicious code at         using POA&Ms, which           related to the verification of
                appropriate locations     are tracked in the            operation of security
                within organizational     ASSERT tool.                  functions.
                information systems;
                and (3) monitor           OCIO/NITC receives
                information system        information system
                security alerts and       security alerts from the
                advisories and take       Federal Computer Incident
                appropriate actions in    Response Center, OCIO
                response.                 Cyber Security, and from
                                          vendors regularly, and
                                          responds appropriately.

                                          Each OCIO/NITC
                                          information system
                                          verifies the correct
                                          operation of security
                                          functions based on its
                                          capabilities.




   USDA/OIG-A/88501-10-FM                                                                                                     Page 18
